CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) and (g)(iv) of the Rules
of the Supreme Court of the United States, I hereby
certify that the accompanying Supplemental Brief on
behalf of Petitioner Jeremiah F. Manning, which was
prepared using Century Schoolbook 12-point
typeface, contains 2,834 words, excluding the parts of
the document that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the wordcount function of the word-processing program
(Microsoft Word) used to prepare this document.
I declare under the penalty of perjury that the
foregoing is true and correct.
DATED this 15th Day of May, 2020.

emiah F. Manning
Petitioner

